 INTERIM REPORT ON NAFTA CROSS-
BORDER TRUCKING DEMONSTRATION
            PROJECT
   Federal Motor Carrier Safety Administration

          Report Number: MH-2008-040
          Date Issued: March 10, 2008
           U.S. Department of
                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Interim Report on NAFTA                     Date:    March 10, 2008
           Cross-Border Trucking Demonstration Project
           Report Number MH-2008-040

  From:    Rebecca Anne Batts                                    Reply to
                                                                 Attn. of:   JA-40
           Assistant Inspector General
            for Highway and Transit Audits

    To:    Federal Motor Carrier Safety Administrator

           As part of our ongoing audit of the cross-border trucking demonstration project,
           initiated by the Department on September 6, 2007, this report presents the interim
           results of our required review. Section 6901 of the U.S. Troop Readiness,
           Veterans’ Care, Katrina Recovery, and Iraq Accountability Appropriations Act,
           2007 1 (the Act) requires us to provide interim and final reports on the
           demonstration project to Congress and the Secretary of Transportation. Our final
           report is due 60 days after the conclusion of the demonstration project.

           As required by the Act, our audit objectives were to determine whether:

           • the demonstration project consists of a representative and adequate sample of
             Mexico-domiciled carriers likely to engage in cross-border operations beyond
             the United States municipalities and commercial zones on the United States-
             Mexico border,

           • the Department has established sufficient mechanisms to determine whether
             the demonstration project is adversely affecting motor carrier safety, and

           • Federal and state monitoring and enforcement activities are sufficient to ensure
             that participants in the demonstration project are complying with all applicable
             laws and regulations.

           This audit was conducted in accordance with Generally Accepted Government
           Auditing Standards as prescribed by the Comptroller General of the United States.

           1
               Public Law 110-28 (2007).
                                                                                                     2

We performed such tests as we considered necessary to detect fraud, waste, and
abuse. Exhibit A contains information on our scope and methodology and
Exhibit B is a listing of prior OIG audit reports on this subject.

CURRENT STATUS OF THE DEMONSTRATION PROJECT
The Department initiated the 1-year demonstration project in September 2007 to
permit up to 100 Mexican motor carriers to operate throughout the United States.
Following the Department’s announcement in February 2007 that a demonstration
project would be conducted, Congress set legislative conditions for initiating the
project, including an initial review by our office and a Departmental response to
Congress addressing any issues identified in our review. In addition, a court case
is currently pending regarding the question of whether a legislative provision
enacted in December 2007 places a funding restriction on the demonstration
project.

Legislative Conditions for Initiating the Demonstration Project
Before the demonstration project (also known as the pilot program) could begin,
legislation was enacted 2 calling for us to review the Federal Motor Carrier Safety
Administration’s (FMCSA) preparations for monitoring and enforcing safety rules
during the demonstration project. The legislation also required the Secretary to
take action addressing any issues we raised in our review and submit a report to
Congress detailing such actions prior to initiating the demonstration project.

We issued our report on September 6, 2007 detailing issues pertaining to the
proposed demonstration project. 3        We found that although FMCSA had
implemented significant initiatives in preparation for the demonstration project,
the Department should, at a minimum, address three issues in its report to
Congress including: (1) ensuring that adequate plans are in place to carry out the
Department’s commitment to check every truck every time it crosses the border
into the United States, including a quality control measure to ensure this system is
effective; (2) ensuring that state enforcement officials understand how to
implement recent guidance on the demonstration project and that training
initiatives filter down to roadside inspectors; and (3) addressing our determination
that FMCSA has implemented policies, rules, and regulations that differ slightly
from the language in 3 of 34 specific congressional requirements.



2
    Section 6901 of the U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability
    Appropriations Act, 2007 (Public Law 110-28).
3
    OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed NAFTA Cross-Border Trucking
    Demonstration Project,” September 6, 2007. OIG reports and testimonies can be found on our website:
    www.oig.dot.gov.
                                                                                                                     3

The Department provided a letter report to Congress on September 6, 2007,
addressing the three issues raised in our audit. The report included Commercial
Truck Border Crossing Implementation Plans for 25 U.S.-Mexico border crossings
designed to ensure that every participating truck is checked every time it crosses
the border into the United States and a quality control plan to ensure this system
operates effectively. The response also provided FMCSA’s outreach plan
identifying past and future activities designed to ensure that state enforcement
personnel have the information needed to oversee the safety of trucks participating
in the demonstration project. Finally, FMCSA agreed to modify policies or take
other actions to align with congressional requirements on issues involving
inspection of trucks during pre-authorization safety audits, checking licenses of
drivers of Mexican trucks at the border, and updating the definition of safety rules
applicable to Mexican motor carriers.

Pending Litigation Over Whether Legislation Restricts Funding for
this Demonstration Project
During the fourth month of the demonstration project, a legislative provision
enacted in the fiscal year 2008 Consolidated Appropriations Act 4 stated:

           None of the funds made available under this Act may be used to
           establish a cross-border motor carrier demonstration program to
           allow Mexico-domiciled motor carriers to operate beyond the
           commercial zones along the international border between the United
           States and Mexico.

At this time, the Department interprets this provision to restrict funding only to
future demonstration projects, but some members of Congress and interested
outside parties contend that the provision restricts funding for the current, ongoing
demonstration project as well. Oral arguments on this issue, among others, have
been made before the 9th Circuit Court of Appeals, and a decision is pending. 5

INTERIM FINDINGS
At the 6-month point in the 1 year project, we found that: (1) Fewer carriers and
vehicles have participated than expected so far in the project. No reliable
statistical projections regarding safety attributes can be made at this point,
although certain characteristics of the Mexican carriers participating in the project,
such as the number of vehicles and drivers, may be representative of a larger
group of carriers that have previously applied for long-haul authority. (2) The
Department has established and is supporting an independent panel to assess any

4
    Consolidated Appropriations Act, 2008, Public Law 110-161, Division K, Title I, § 136 (2007).
5
    Sierra Club, et al. v. Department of Transportation, et al., No. 07-73415 (9th Circuit filed August 29, 2007).
                                                                                                                       4

adverse safety impacts from the project although the panel is concerned that it will
not have sufficient data to draw meaningful conclusions when the project ends.
(3) FMCSA has established and enhanced mechanisms for state and Federal
monitoring and enforcement of safety rules, and FMCSA records show that about
3,700 checks have been done at the border. However, a key quality control
measure promised to Congress has not been implemented. This control measure is
designed to ensure that checks of all Mexican drivers and vehicles crossing the
border are occurring as planned. Without this quality control measure, FMCSA
does not have assurance that it has checked every Mexican truck and driver that is
participating in the project when they cross the border into the United States.

Fewer Carriers and Vehicles than Anticipated Are Participating in the
Project, Which Impacts the Ability To Make Reliable Statistical
Projections
Immediately after issuing the Department’s September response to Congress,
FMCSA initiated the demonstration project by granting provisional operating
authority to the first Mexico-domiciled carrier. However, at the 6-month point,
fewer carriers than anticipated are participating in the demonstration project.
Specifically, since the project’s initiation, only 19 Mexican carriers have been
granted provisional operating authority,6 one of which withdrew 7 on February 1,
2008. By contrast, in April 2007, FMCSA had anticipated granting provisional
authority to 25 carriers each month, until 100 were participating.

According to FMCSA records, an additional 28 carriers have qualified for the
program, but they have not filed the required proof of insurance. However, even if
those carriers were to file the required insurance proof and were granted
provisional authority, the total number of Mexican carriers would reach only 47—
just under half the 100 carriers originally envisioned.

Fewer vehicles than estimated are involved in the project and FMCSA’s records
indicate that only 247 trips extended beyond the commercial zones. In August
2007, FMCSA estimated that, based on the number of vehicles approved at that
time, 540 vehicles would be participating in the project if 100 Mexican carriers
eventually received provisional authority. By contrast, as of February 25, 2008,
only 70 vehicles were identified by the 16 Mexican carriers that had participated
up to that point, including the carrier that dropped out. FMCSA’s records, as of
February 25, 2008, show 3,680 crossings into the United States by project

6
     According to FMCSA data, 19 carriers had received provisional authority as of March 6, 2008. We limited our
     analyses to the 16 Mexican carriers that had received authority as of February 25, 2008, including the carrier that
     withdrew from the project on February 1, 2008. We did not include in our analysis data related to the 3 carriers
     admitted to the project after February 25, 2008.
7
    The carrier that withdrew, Trinity Industries de Mexico S de R L de CV, reported the largest fleet of vehicles of all
     demonstration project participants as of February 25, 2008—16 vehicles.
                                                                                       5

participants with 247, or 6.7 percent listing destinations beyond the commercial
zones. About 89 percent of these appear to be to one state—California.

The following table compares the projected number of carriers and vehicles to
those 16 carriers that were participating in the project as of February 25, 2008.
Our subsequent analysis is also based on the same 16 carriers.

               Table: Projected versus Actual Participation as of
                              February 25, 2008

         600                                       540
         500
         400
                                                                           Projected
         300
                                                                           Actual
         200          100                                  70
         100                   16
           0
                        Carriers                    Vehicles

       Source: OIG analysis of FMCSA data. Data are for carriers granted provisional
       operating authority as of February 25, 2008.

Although we have not independently verified the information, according to
FMCSA officials and press reports, factors such as the additional costs of
insurance, the uncertainty of the project, and the burdens associated with increased
reviews at the border may have played a role in the limited participation of
Mexican carriers.

Although the 16 participants appear representative of the larger group of
723 Mexican carriers that have applied for long-haul authority, the current number
of participants is not adequate to make statistically reliable projections or
estimates of some important characteristics, including safety characteristics such
as the number of crashes that could be expected from long-haul Mexican carriers.
The 16 carriers represent about 2 percent of the 723 original applications for long-
haul authority that FMCSA provided us. Our statistical analysis shows that for
certain characteristics, such as the number of vehicles reported, the demonstration
project participants appear to be representative of a larger group of Mexican
carriers that have applied for long-haul authority in the United States over the past
10 years.

Our statistical tests on the following variables showed no statistically significant
difference between the two groups.
                                                                               6



   ♦   Form of the company’s business entity
   ♦   Whether the company currently operates in the United States
   ♦   U.S. affiliation reported by the company
   ♦   Type of registration being sought by the company
   ♦   Whether the company transports hazardous materials
   ♦   Which border crossings the company intends to use
   ♦   Number of vehicles reported by the company
   ♦   Number of trailers reported by the company
   ♦   Number of drivers reported by the company
   ♦   The type of cargo the company intends to transport

The figure below compares selected characteristics of the 16 participants and the
universe of 723 applicants. This figure is based on answers supplied by the 723
applicants in their application packages to FMCSA, which included the 16
demonstration project participants. We did not independently validate the
information.


            Figure: Comparison of Project Participants to All
                             Applicants
   Form of Business

                   60%

                   40%

                   20%

                       0%
                                                         SOLE
                            CORPORATION PARTNERSHIP                 OTHER
                                                      PROPRIETORS

            UNIVERSE            37%         16%           46%        1%
            PARTICIPANTS        44%         0%            56%        0%
                                                                                            7


   Currently Operates in U.S.


                    100%



                     50%


                        0%
                                   YES                    NO              NO ANSWER

             UNIVERSE              78%                  21%                  1%
             PARTICIPANTS          81%                  19%                  0%



     Number of Vehicles Owned


                     80%

                     60%

                     40%

                     20%

                        0%
                                                                                    NO
                             1 TO 5      6 TO 10   11 TO 15    16 TO 20    >20
                                                                                  ANSWER
             UNIVERSE        72%           7%        2%          0%        2%         16%
             PARTICIPANTS    63%          13%        0%          0%        13%        13%


 Source: OIG Analysis of FMCSA Data. Totals may exceed 100 percent due to rounding.

As these charts and our statistical analysis demonstrate, the 16 participants appear
to have characteristics that are representative of all of the Mexican carriers that
have applied for long-haul authority, but the number of participants in the
demonstration project to date is not sufficient to reliably predict the safety
behaviors of the universe of carriers that applied for authority based on the
behaviors of the participants.

An Independent Evaluation Panel Is Assessing Whether the
Demonstration Project Adversely Affected Motor Carrier Safety in the
United States
FMCSA has stated that it will rely on the work of the Department’s Independent
Evaluation Panel to determine whether the demonstration project has adversely
affected motor carrier safety in the United States. Our work has verified the
ongoing efforts of the panel. The panel includes former U.S. Representative, Jim
Kolbe, former Department of Transportation (DOT) Deputy Secretary, Mortimer
Downey, and former DOT Inspector General, Kenneth Mead. As part of our
work, we met with the panel and its staff to get an understanding of the panel’s
                                                                                                                    8

role and to determine whether it is receiving all it needs to carry out its mission.
As determined in our discussion with panel members and staff, the panel is
attempting to assess crash data, driver traffic convictions, maintenance of vehicles
and out-of-service rates, violations of critical safety regulations and other safety
problems identified by enforcement personnel.

At this time, the panel reports it is receiving the data and information needed and it
plans to deliver its report in October 2008. As the demonstration project
continues, we will continue our open dialogue with the panel to ensure that it has
the information and resources needed to complete its work.

We plan to conduct an independent examination of adverse safety effects related
to project participants. 8 Presently, we have no information that any project
participants have been involved in a crash; but like the panel, we are concerned
that the low number of participants will affect the panel’s ability to draw any
meaningful conclusions from the data about the safety performance of the
demonstration project participants.

A Quality Control Measure To Ensure that Checks at the Border Are
Occurring Has Not Been Implemented, Although FMCSA Has Taken
Other Actions Intended To Ensure Compliance with Safety Rules
As mentioned in our last report, 9 checks at the border are important because they
review the driver’s license to ensure that the vehicle is driven by a licensed driver
and that the truck has an inspection decal issued by the Commercial Vehicle
Safety Alliance (CVSA). We verified that FMCSA had developed 25 site-specific
border crossing plans in conjunction with U.S. Customs and Border Protection
(CBP) personnel to carry out these checks at the border, and FMCSA provided us
with records showing that about 3,700 checks were done since the demonstration
project began in September. However, FMCSA has not implemented a quality
control measure that is important for ensuring the reliability of this information,
even though FMCSA committed to do so in the Department’s September 6, 2007,
letter report to Congress.

FMCSA Provided Evidence Checks Are Being Conducted but has No
Assurance that all Mexican Trucks and Drivers Are Being Checked at the
Border as Planned. FMCSA’s policy requires that each Mexican truck that
crosses the border undergoes a safety compliance check. During the check,
FMCSA will verify that vehicles have current CVSA decals and that drivers have
8
    We will examine crash and inspection records of the participants as well as records of Mexican carriers that have
    previously operated beyond the border commercial zones. Our January 3, 2005, Report Number MH-2005-032,
    “Follow-up Audit of the Implementation of the North American Free Trade Agreement’s Cross-Border Trucking
    Provisions,” discusses 1,300 Mexican carriers previously granted authority to operate beyond the commercial zones.
9
    OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed NAFTA Cross-Border Trucking
    Demonstration Project,” September 6, 2007.
                                                                                     9

valid licenses and demonstrate proficiency in the English language. To ensure that
each truck is identified so that a check can be completed, FMCSA developed 25
site-specific border crossing implementation plans in conjunction with CBP
personnel that specify how this will occur at each commercial port-of-entry.
FMCSA also developed a quality control plan to document the extent to which
FMCSA is able to achieve its goal of checking every truck every time. However,
FMCSA has not implemented the quality control plan as promised.

FMCSA committed to the quality control plan in the Department’s September 6,
2007, letter report to Congress. 10 In the report, FMCSA stated that it would
acquire crossing data from CBP and perform a monthly analysis of a random
10 percent sample of the data to document the extent to which FMCSA was
meeting its goal of checking every truck every time it crossed the border.
However, this process is not now in place. According to a FMCSA official,
FMCSA is still gathering information for this control, and is exploring other
methods to verify that every Mexican truck and driver is checked at the border.
Until FMCSA implements a quality control check using CBP, or another valid
source of data, to establish a baseline for the number of crossings, like FMCSA,
we will have no assurance that all checks are being conducted as required.

In addition to ensuring that all vehicles and drivers are checked, it is also
important that accurate information is recorded during the checks to facilitate the
evaluation of the project. We examined FMCSA’s records for about 2,000 truck
crossings for participants that occurred through January 5, 2008. To date, our
analysis identified 44 of the FMCSA crossings records that had unclear or
incomplete responses such as stating “not applicable” for recording a primary
CVSA decal number or leaving blank the space for English language proficiency
testing. To the degree that the Independent Evaluation Panel uses this information
for its work, errors and omissions in crossing data would adversely affect the
panel’s analysis. We will obtain updated data and conduct additional analysis as
the project continues.

To its credit, FMCSA has taken actions to help ensure that participants comply
with safety regulations and project requirements. As the year-long demonstration
project reaches its 6-month point, our interim observations regarding these actions
and our plans for future work include the following.

Insurance Requirements. FMCSA has recorded insurance information from
project participants within an established database to record such information.
Our independent examination of FMCSA’s Licensing and Insurance System and
our direct contact with the insurance companies showed that all Mexican carriers
who were issued provisional authority as of February 4, 2008, had the required

10
     Enclosure 4 of the Department’s September 6, 2007, letter report to Congress.
                                                                                                       10

$750,000 in bodily injury and property damage liability insurance. We will
continue to verify that insurance is maintained by the participants as the
demonstration project continues.

Guidance for and Training of State Enforcement Officials. FMCSA has
provided guidance and training for state enforcement officials. We obtained
information showing that 421 state officials have received further training on
issues related to foreign motor carriers before and after the project initiated. To
assess the impact of these efforts, we followed up on the results of our
September 6, 2007, report where we noted that five state officials did not believe
they were ready to enforce the requirements of the demonstration project. We
have re-contacted those state officials for this review and officials now indicate
that they are ready to enforce demonstration project requirements for Mexican
carriers. Those officials cited completion of adequate training and receipt of
FMCSA guidance as the primary reasons for their current readiness to enforce
demonstration project requirements. We will continue to examine FMCSA’s
efforts in this area as the audit continues.

Mexican Conviction Database. FMCSA has established a Mexican Conviction
Database to track traffic convictions of Mexican drivers occurring in the United
States. We obtained evidence from FMCSA indicating that problems we
identified in August 2007 11 with the Mexican Conviction Database (formerly
known as the 52nd State System) have been corrected by the states. We also
verified that a report to help identify inconsistencies in the database had been
issued in January 2008. We will conduct further testing at the states as the audit
continues.

Global Positioning System (GPS). FMCSA has contracted with a company to
place global positioning devices on all U.S. and Mexican trucks that are
participating in the project and FMCSA demonstrated to us how the system can
identify the position of a particular truck. Data provided by FMCSA showed that
as of February 21, 2008, 82 GPS units had been installed (on 38 Mexican trucks
and 44 U.S. trucks) and plans were being finalized for an additional 19 GPS units
to be installed (on 14 Mexican trucks and 5 U.S. trucks). As the demonstration
project continues, we plan to monitor the installation and use of GPS technology,
particularly as it relates to cabotage and hours-of-service violations.

Mexican Carrier Monitoring System. Our previous audit work has confirmed
the establishment of a system for monitoring compliance of Mexican carriers
operating in the United States. For this review, we obtained reports from this


11
     OIG Report Number MH-2007-062, “Follow-up Audit on the Implementation of the North American Free Trade
     Agreement’s Cross-Border Trucking Provisions,” August 6, 2007.
                                                                                11

system for demonstration project participants and we will continue to review these
as the audit continues.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We are not making any recommendations in this interim report. At this time, the
NAFTA Cross-Border Trucking Demonstration Project has been in operation for
only 6 months and participation by Mexican carriers has been less than
anticipated. Our final report on the demonstration project will be due within 60
days of the conclusion of the project. We discussed this report with FMCSA
officials on March 4, 2008, and their comments were considered in finalizing our
interim report.

We appreciate the courtesies and cooperation of the FMCSA representatives
during this audit. If you have any questions concerning this interim report, please
call me at (202) 366-5630 or Joe Comé, the Program Director, at (202) 366-0377.

                                        #
                                                                                 12


EXHIBIT A. SCOPE AND METHODOLOGY
This performance audit was conducted from December 2007 through February
2008 in accordance with Generally Accepted Government Auditing Standards as
prescribed by the Comptroller General of the United States. We performed such
tests as we considered necessary to detect fraud, waste, and abuse.

Our work included a review of documentation from various sources and
interviews with Federal and state personnel, International Association of Chiefs of
Police (IACP), and U.S. Customs and Border Protection (CBP). We also met
frequently with members of the Department’s Independent Evaluation Panel.

To determine whether sufficient mechanisms are established to report on whether
the demonstration project has had any adverse effects on motor carrier safety, we
assessed requirements identified in the memorandum of understanding between
the Department and the Independent Evaluation Panel to determine whether these
requirements appear sufficient to measure adverse effects. As the audit continues,
we will continue to meet with the evaluation panel members to ensure they are
receiving adequate support and information from the Department; and we will
independently analyze safety data generated by the demonstration project
participants as well as data generated by comparable groups.

To get an understanding of the monitoring and enforcement mechanisms within
the United States, we spoke with state officials in five states who had previously
reported that they were not ready to enforce requirements of the demonstration
project. Further, we contacted General Services Administration personnel
regarding border crossing layouts, and CBP personnel to verify site-specific plans
at 25 U.S.-Mexico commercial border crossings. Finally, we obtained data from
FMCSA regarding the Mexican Conviction Database, a list maintained by
FMCSA that records details about each participating driver and vehicle that has
crossed into the U.S. from Mexico, and data on the status of Mexican applications
for long-haul authority. Further work for the final report will concentrate on
verifying whether these mechanisms have been put into place and are operating as
planned.

When we issued our September 2007 report, FMCSA had begun to provide
enforcement training opportunities to its state partners to ensure that all motor
carrier enforcement personnel understand requirements specific to the
demonstration project. We examined new guidance issued by FMCSA since that
report, as well as training and communication strategies FMCSA has planned,
performed, and scheduled for state enforcement officials. We obtained data on the
train-the-trainer courses they presented and the resulting training conducted by the
states. As our audit continues, we will obtain additional data on training and


Exhibit A. Scope and Methodology
                                                                                    13

determine whether the information has filtered down to the lowest levels of motor
carrier safety enforcement.

We analyzed the 25 site-specific implementation plans that FMCSA developed to
assess FMCSA and CBP’s responsibility for identifying and inspecting the trucks
and drivers of demonstration project participants each time they enter the United
States. Further work will include site visits to a select number of border crossings
to determine whether the site specific plans were implemented and are operating
as planned.

We requested from FMCSA records of border crossings by demonstration project
participants. FMCSA responded by providing a spreadsheet of CVSA Inspection
Decal Compliance Records. Initially, we reviewed the data by sorting for different
attributes, such as border crossings by participating carriers and border crossings
by port-of-entry. Our secondary review consisted of narrowing data searches to
identify specific anomalies in FMCSA’s data collection and reporting procedures.
In addition, we obtained Company Safety Profiles for Mexican carriers that were
participating in the project during that time period, and compared records of
inspections to the spreadsheet of CVSA Inspection Decal Compliance Records.

In examining whether the Mexican carriers participating in the demonstration
project are representative of those likely to participate in long-haul operations, we
chose as our universe all Mexican carriers who had submitted applications for
long-haul authority in the United States in the past 10 years. We requested from
FMCSA copies of all application packages submitted by Mexican carriers. The
application packages included both the application and the MCS-150 forms.

We analyzed the application packages to eliminate duplicates, leaving 723 distinct
applicants. We selected and recorded the following application characteristics as
identified: the name of the carrier (to be used as the identifier), the date the
application was received, the Mexican state in which the carrier is located, the
carrier’s U.S. DOT number, the carrier's form of business, (corporation, sole
proprietorship, or partnership), whether the carrier operates in the United States,
the carrier’s MC/MX number, the carrier’s U.S. tax ID number, the name of the
carrier’s U.S. affiliate, the type of carrier registration being requested, whether the
carrier is certified to carry hazardous materials, and the border crossings the
carrier plans to use. From the MCS-150 form, we selected and recorded the
number of vehicles, trailers, and drivers and the type of cargo the carrier intended
to haul. We conducted statistical tests on 10 of these characteristics to determine
whether there was any statistically significant difference between the universe of
723 applicants and the 16 Mexican carriers that had participated in the
demonstration project as of February 25, 2008. We will continue these
comparisons as more Mexican carriers are added to the demonstration project.


Exhibit A. Scope and Methodology
                                                                            14

Section 6901 of the U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and
Iraq Accountability Appropriations Act, 2007 did not require us to monitor and
review the U.S. motor carriers participating in the demonstration project and
operating in Mexico. Therefore, the interim and final reports will not address
these participants.




Exhibit A. Scope and Methodology
                                                                                    15


EXHIBIT B. PRIOR AUDIT COVERAGE

Prior OIG Audits
Our most recent report, issued in September 2007, identified three issues that
FMCSA should address with Congress.

First, FMCSA had not developed and implemented complete, coordinated plans
for checking trucks and drivers participating in the demonstration project as they
cross the border. Without having site-specific border crossing plans in place and
fully coordinated with CBP and the state, the Department’s commitment to check
every demonstration project truck every time it crosses the border into the United
States is at risk. Our report also stated that these plans should include quality
control measures to ensure that FMCSA’s system for checking each demonstration
project truck is effective. These checks are important because they will review the
driver’s license to ensure that the vehicle is driven by a licensed driver and that the
truck has a current inspection decal issued by the CVSA. This decal shows that a
vehicle received a safety inspection in the previous 3 months.

Second, we reported that a considerable number (26 of 50) of state officials
responsible for coordinating motor carrier safety programs expressed one or more
concerns about the demonstration project and 5 states indicated they were not
ready to enforce demonstration project requirements. Despite issuing guidance
and brochures on assessing English language proficiency and detailing cabotage
rules, regulations, and procedures and initiating a train-the-trainer program, state
concerns indicated that FMCSA should develop a feedback mechanism to ensure
that critical information reaches roadside inspectors who enforce Federal safety
rules.

Third, we found that FMCSA implemented 3 of 34 provisions in Section 350(a) of
the fiscal year 2002 Appropriations Act using language that differed slightly from
what Congress had specified. The differences related to which trucks should be
inspected during pre-authorization safety audits, which drivers should undergo
electronic license checks at border crossings, and the inclusion of newer safety
rules applicable to Mexican motor carriers.

In its letter report to Congress, the Department addressed all of these issues. It
provided Congress with site-specific plans to ensure that every truck participating
in the demonstration project is checked at every border crossing; a quality control
plan to document the extent to which FMCSA is able to achieve its goal of
checking every vehicle at every border crossing; a Demonstration Project State
Outreach Plan; and plans to address slight language differences between FMCSA
implementation and legislative provisions. Enclosure 4 of the Department’s letter


Exhibit B. Prior Audit Coverage
                                                                           16

report to Congress addressed quality control measures to be used based on data
acquired from CBP.

OIG reports issued on this subject area are listed below.

• OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed
  NAFTA Cross-Border Trucking Demonstration Project,” September 6, 2007.

• OIG Report Number MH-2007-062, “Follow-up Audit on the Implementation
  of the North American Free Trade Agreement’s Cross-Border Trucking
  Provisions,” August 6, 2007.

• OIG Report Number MH-2005-032, “Follow-Up Audit of the Implementation
  of the North American Free Trade Agreement’s Cross-Border Trucking
  Provisions,” January 3, 2005.

• OIG Report Number MH-2003-041, “Follow-Up Audit on the Implementation
  of Commercial Vehicle Safety Requirements at the U.S.-Mexico Border,”
  May 16, 2003.

• OIG Report Number MH-2002-094, “Implementation of Commercial Vehicle
  Safety Requirements at the U.S.-Mexico Border,” June 25, 2002.

• OIG Report Number MH-2001-096, “Motor Carrier Safety at the U.S.-Mexico
  Border,” September 21, 2001.

• OIG Report Number MH-2001-059, “Interim Report on Status of
  Implementing the North American Free Trade Agreement’s Cross-Border
  Trucking Provisions,” May 8, 2001.

• OIG Report Number TR-2000-013, “Mexico-Domiciled Motor Carriers,”
  November 4, 1999.

• OIG Report Number TR-1999-034, “Motor Carrier Safety Program for
  Commercial Trucks at U.S. Borders,” December 28, 1998.




Exhibit B. Prior Audit Coverage
                                                              17


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



   Name                                   Title

   Joe Comé                               Program Director

   Joan Becker                            Project Manager

   Chris Brothers                         Project Manager

   David Pouliott                         Project Manager

   Kimberley Bolding                      Senior Auditor

   Pat Conley                             Senior Auditor

   Tony Saraco                            Senior Auditor

   Gerry Sheeran                          Senior Auditor

   Maurice Toval                          Senior Auditor

   Kate Conway                            Analyst

   Constance Hardy                        Analyst

   Michael Masoudian                      Analyst

   Calvin Moore                           Analyst

   Anette Soto                            Analyst

   Scott Williams                         Analyst

   Tom Lehrich                            Chief Counsel

   Seth Kaufman                           Associate Counsel

   Petra Swartzlander                     Statistician

   Harriet Lambert                        Writer-Editor




Exhibit C. Major Contributors to This Report
The following pages contain textual versions of the charts and figures found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
                      Interim Report on NAFTA Cross-Border
                          Trucking Demonstration Project


Table: Projected versus Actual Participation as of February 25, 2008

The table is a 2-column chart that compares the projected number of carriers and
vehicles to those actually participating in the demonstration project as of
February 25, 2008. The first comparison shows that 100 carriers were projected to
participate in the demonstration project but 16 carriers had actually participated as
of February 25, 2008. The second comparison shows that 540 vehicles were
projected to participate in the project but 70 vehicles had actually participated as
of February 25, 2008.

Source: OIG analysis of FMCSA data. Data are for carriers granted provisional
operating authority as of February 25, 2008.

Figure: Comparison of Project Participants to All Applicants

The figure includes three charts that compare the responses provided by the
universe of all 723 applicants for long-haul authority to responses provided by the
16 demonstration project participants that had participated in the demonstration
project as of February 25, 2008. The comparisons are presented as percentages of
all responses within each respective group, and total percentages for a group may
exceed 100 percent due to rounding. The universe of 723 applicants includes the
16 participants.

The first chart compares responses of the two groups on their form of business
entity.


Corporation            37 percent of universe         44 percent of 16 participants
Partnership            16 percent of universe         0 percent of 16 participants
Sole Proprietorship    46 percent of universe         56 percent of 16 participants
Other response         1 percent of universe          0 percent of 16 participants


The second chart compares responses of the two groups on whether they currently
operate in the United States.

Yes                    78 percent of universe         81 percent of 16 participants
No                     21 percent of universe         19 percent of 16 participants
No answer              1 percent of universe          0 percent of 16 participants
The third chart compares responses of the two groups on the number of vehicles
they owned. The number of vehicles is presented in categories of from 1 to 5
vehicles, 6 to 10 vehicles, 11 to 15 vehicles, 16 to 20 vehicles, more than 20
vehicles, and no answer provided.


1 to 5 vehicles          72 percent of universe 63 percent of 16 participants
6 to 10 vehicles         7 percent of universe  13 percent of 16 participants
11 to 15 vehicles        2 percent of universe  0 percent of 16 participants
16 to 20 vehicles        0 percent of universe  0 percent of 16 participants
More than 20 vehicles    2 percent of universe  13 percent of 16 participants
No answer                16 percent of universe 13 percent of 16 participants
Source: OIG Analysis    of FMCSA data. Totals may exceed 100 percent due to
rounding.
